                                                            IG-00-054




AUDIT
                           PROPERTY ADMINISTRATION DELEGATIONS FOR
REPORT                           CONTRACTOR-HELD PROPERTY

                                       September 27, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits


To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

DOD             Department of Defense
DCMA            Defense Contract Management Agency
FAR             Federal Acquisition Regulation
IPO             Industrial Property Officer
ONR             Office of Naval Research
NPD             NASA Policy Directive
NPG             NASA Policy Guidance
W                                                                       September 27, 2000




TO:             A/Administrator

FROM:           W/Inspector General

SUBJECT:        INFORMATION: Property Administration Delegations for Contractor-Held
                Property
                Report Number IG-00-054


The NASA Office of Inspector General (OIG) is conducting an audit of NASA and delegated
Agency management of contractor-held property. During the audit, we determined that controls
for delegating property oversight responsibility could be improved. For example, property
administration delegations were not completed for 10 contracts with more than $12 million in
contractor-held property. In addition, delegation issues were not resolved between Johnson
Space Center (Johnson) and Kennedy Space Center (Kennedy) for three contracts with more
than $1.9 billion in contractor-held property. Consequently, neither Center is performing the
property administration oversight for this property. As a result, NASA is not assured that these
resources are used and safeguarded in accordance with the contract's terms and conditions.

Background

NASA provides Government property, referred to as contractor-held property, to its
contractors. While NASA has overall responsibility for this property, the Agency can either
retain property administration oversight or delegate this function to the Defense Contract
Management Agency (DCMA). NASA's policy is to delegate property administration for off-
site contractors and retain property administration for on-site contractors. One of the critical
oversight functions is the analysis of the contractor's property management system. It is through
this analysis that property administrators determine whether the contractor is complying with the
contract terms and conditions regarding property. The analysis results in a report that is
provided to the contracting officer.

Recommendation

We recommended that the Associate Administrator for Procurement instruct Procurement
officials at Johnson and Marshall Space Flight Center (Marshall) to issue delegation letters to
DCMA and obtain acceptance, modification, or rejection of those delegations for the 10
contracts noted earlier. We also recommended that the Associate Administrator for
Procurement strengthen controls to ensure that NASA complies with Federal Acquisition
Regulation (FAR) and NASA FAR Supplement regulations that address property
administration. We further recommended that Center Directors at Johnson and Marshall ensure
that contracting officers comply with the FAR and the NASA FAR Supplement pertaining to
property administration. Also, we recommended that Center Directors at Johnson and
Kennedy complete the property delegation for the three contracts noted earlier.

Management Response and OIG Evaluation

Management concurred with our recommendations. The complete text of management's
response is in Appendix F. Management, however, is not fully responsive to our
recommendation to issue delegation letters to DCMA for the ten contracts noted earlier.
Management stated that delegations were not needed for six of the ten contracts because the
contracting officer retained the property administration responsibility. This property is not
located at NASA Centers. NASA's policy is to delegate property administration for property
that is not located at NASA Centers. Accordingly, property administration should be delegated
for those contracts. We request that management provide additional comments explaining the
reasons for not following the policy. Management fully concurred with our recommendation to
strengthen administrative controls to ensure compliance with the FAR and NASA FAR
Supplement. Management also fully concurred with our recommendation to instruct the
Johnson and Marshall Center Directors to ensure that contracting officers comply with the FAR
and NASA FAR Supplement pertaining to property administration. Management provided
corrective actions along with closure dates for these recommendations. The planned corrective
actions, such as assessing regulatory efficacy and issuing guidance, address the intent of our
recommendations. While management concurred with the recommendation to resolve the
property administration issue at Kennedy, it did not provide a completion date. Completion
includes accepting the delegation and providing adequate resources to perform the contractor
oversight. Therefore, we request that management provide a completion date in response to the
final report.

Details on the status of the recommendations are in the finding section of the report.

[Original signed by]

Roberta L. Gross

Enclosure
Final Report on Audit of Property Administration
 Delegations for Contractor-Held Property
         PROPERTY FINAL REPORT
              ADMINISTRATION
DELEGATIONS FOR CONTRACTOR-HELD PROPERTY
W                                                                        September 27, 2000


TO:              H/Associate Administrator for Office of Procurement
                 M/Associate Administrator for Space Flight
                 AA/Director, Lyndon B. Johnson Space Center
                 AA/Director, John F. Kennedy Space Center
                 DA01/Director, George C. Marshall Space Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on Audit of Property Administration Delegations for Contractor-
                 Held Property
                 Assignment Number A0000700
                 Report Number IG-00-054

The subject final report is provided for your use and comments. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. We request that management reconsider its position not to delegate
property administration on selected contracts for which property is located off NASA Centers
as set forth in the report and provide its comments in writing by November 27, 2000. The
corrective actions planned for recommendations 2 and 3 were responsive. The planned
management's actions, if implemented, will be sufficient to close recommendations 2 and 3. We
request additional information for recommendation 4 as described in the report. All
recommendations will remain open until the above actions are taken.

If you have questions concerning the report, please contact Mr. Daniel Samoviski, Program
Director, Earth and Space Science Audits, at (301) 286-6890, or Mr. Larry J. Timmons,
Auditor-in-Charge, at (321) 867-4705. We appreciate the courtesies extended to the audit
staff. The final report distribution is in Appendix G.


[Original signed by]

Russell A. Rau

Enclosure
                                                     2




cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendations , 2

     Property Administration Functions

Appendix A - Objectives, Scope, and Methodology, 8

Appendix B - FAR and NASA Far Supplement Guidance, 10

Appendix C - Property Management Functions, 11

Appendix D - Property Management System Analysis Elements, 13

Appendix E - Contracts Without Completed Contract Delegations, 14

Appendix F - Management's Response, 15

Appendix G - Report Distribution, 22
                                 NASA Office of Inspector General

IG-00-054                                                                             September 27, 2000
 A0000700


                            Property Administration Delegations for
                                  Contractor-Held Property

                                             Executive Summary

Background. NASA accomplishes much of its mission through the use of contractors. The
Agency often provides its contractors Government-furnished property, or the contractors
acquire property using NASA funds.1 In either case, NASA often retains title or ownership of
the property while it is in the custody of contractors. Contractors are required to manage and
account for NASA property in accordance with the FAR and the NASA FAR Supplement as
well as other directives and contractual requirements. To ensure they comply with these
requirements, contractors develop and maintain property management systems.

While NASA has overall responsibility for oversight of contractors' property management
systems, the Agency normally delegates this responsibility to either the DCMA or the Office of
Naval Research (ONR). NASA retains responsibility for contractors located on or near
NASA Centers, depending on the Center's guidelines. The NASA Industrial Property Officer
(IPO) has overall responsibility for contractor oversight, while NASA property administrators
are responsible for detailed oversight of the contractors' property management system.

Objective. The overall audit objective is to determine whether NASA and its delegated
agencies appropriately manage Government property held by contractors. This report identifies
conditions regarding property administration delegations. We will address the overall objective
in future reviews. Details on the objective, scope, and methodology are in Appendix A.

Results of Audit. While property delegations were properly completed at Goddard Space
Flight Center, property delegations were not properly completed or resolved in all instances at
other NASA Centers. Specifically, NASA contracting officers at Marshall and Johnson did not
formally delegate or DCMA did not acknowledge receipt of property administration
responsibilities, for 10 contracts with contractor-held property totaling $12 million. Also, the
IPO at Kennedy did not accept property administration delegations for three Johnson contracts
with contractor-held property at Kennedy valued at more than
$1.8 billion. Consequently, property administrators did not perform any property



1
    This property is referred to as contractor-held property throughout the report.
administration functions for these contracts. Accordingly, NASA is not assured that its
resources, in the possession of contractors, are being utilized and safeguarded consistent with
the contract's terms and conditions.

Recommendations. We recommended that management instruct the appropriate contracting
officers to delegate property administration to the DCMA and ensure that DCMA accepts,
modifies, or rejects the delegation for the identified contracts. Also, management should
strengthen administrative controls to ensure that the Agency is in compliance with the FAR and
the NASA FAR Supplement regulations that address property administration. Lastly,
management should resolve the property administration issue for the Johnson property located
at Kennedy.

Management's Response and Evaluation of Response

Management's Response. Management concurred with our recommendations. While
management agreed to issue delegation letters for four contracts, they stated that six of the
contracts should not be delegated to DCMA because the contracting officer retained property
administration oversight. NASA also agreed to review pertinent NASA FAR Supplement
regulations and determine whether the regulations should be strengthened. NASA further
agreed to remind contracting officers of the need for delegating property administration functions
when appropriate. NASA stated it would resolve the property administration issue for the
Johnson property located at Kennedy. The complete text of the response is in Appendix F.

Evaluation of Response. While management concurred in principle with each
recommendation, we request that management reconsider its position on our recommendation
to issue delegation letters to DCMA and provide additional comments. We have also asked
management to provide a completion date relating to our recommendation to resolve the
Kennedy delegation issue. Management is not fully responsive to our recommendation to issue
delegation letters to DCMA. Management stated that property delegations were unnecessary
for six contracts because the contracting officer retained this function. This property, however,
is not located at NASA Centers. Management's position does not agree with their stated policy
of delegating property oversight to DCMA for off-site property. Accordingly, we request that
they reconsider their position. Management concurred with our recommendation to strengthen
FAR and NASA FAR Supplement controls. Management also concurred with our
recommendation to ensure that contracting officers at Johnson and Marshall comply with FAR
and NASA FAR Supplement regulations governing property administration. All
recommendations will remain open until all corrective actions have been taken.




                                                ii
Introduction

The FAR and NASA FAR Supplement provide guidance and direction to NASA contracting
officers for delegating contract administration services, such as property administration. These
requirements are set forth in FAR Subpart 42.2, "Contract Administration Services," and
NASA FAR Supplement Part 1842, "Contract Administration and Audit Services."

NASA may delegate responsibility to oversee a contractor's property management system to
DCMA or ONR. The DCMA oversees for-profit contractors, while the ONR oversees non-
profit and educational organizations. NASA retains oversight responsibility for contractors
located on or near NASA Centers depending on a Center's guidelines. NASA property
administrators oversee contractor's property management systems under the direction of an
IPO.

The FAR and NASA FAR Supplement also provide guidance and direction to contractors who
manage and account for property either provided to them by NASA or acquired using
Government funds. These requirements are set forth in FAR Part 45, "Government Property,"
and NASA FAR Supplement Part 1845, "Government Property." Contractors may also have
to comply with other property management directives if the contracting officers include these
requirements in the contract. For example, NASA may include NPG 4300.1, "NASA Personal
Property Disposal Procedures and Guidelines," in contracts that involve NASA property.
Contractors develop property management systems to ensure that they comply with these
requirements.
Finding and Recommendations

Property Administration Functions

NASA contracting officers at Johnson and Marshall did not issue property administration
delegations or ensure that DCMA properly acknowledged acceptance, modification, or
rejection of the delegations for 10 contracts as required by the FAR and NASA FAR
Supplement. In addition, the Kennedy IPO did not accept property administration delegations
for three other Johnson contracts. Contracting officers could not provide reasons for the lack of
delegations and the lack of DCMA acknowledgement of the delegations. The Kennedy IPO,
however, stated that resource limitations prevented acceptance of the Johnson delegation.
Consequently, property administration functions have not been performed, resulting in NASA's
lack of assurance that more than $1.9 billion in contractor-held property is managed
appropriately.

Requirements and Guidance for Property Administration Delegation

The FAR and NASA FAR Supplement contain requirements and guidance on contract
administration that includes property administration. NASA can either retain the property
administration function or delegate it to the DCMA. The process begins with the NASA
contracting officer issuing the delegation on NASA Form 1430, "Letter of Contract
Administration Delegation, General." Property administrators can accept, modify, or reject the
delegation. Acceptance is evidenced on NASA Form 1431, Letter of Acceptance of Contract
Administration Delegation." Further information on property administration requirements and
guidance is in Appendix B.

When overseeing a contractor's property management system, DCMA and NASA personnel
must follow the Department of Defense (DOD) guidance in DOD 4161.2-M, "DOD Manual
for the Performance of Contract Property Administration" (DOD Manual). The purpose of
property administration, according to the DOD Manual, is to attain efficient, economic, and
uniform management of contractor-held property. The manual identifies 23 functions, as shown
in Appendix C, that property administrators must perform.

A critical property management function is the annual analysis of the contractor's property
management system. The analysis includes 15 elements, which are described in Appendix D.
The purpose of the analysis is to ensure uniformity and consistency in the administration of
contract provisions relating to Government property in the custody of contractors. The DOD
Manual specifies the levels of analysis, sampling plans and techniques, planning, and reporting
that the property administrator must use. It is through performing this analysis that property
administrators determine whether contractors are complying with contract terms and conditions
regarding property. The property administrator's analysis results in an annual report submitted



                                               2
to the contracting officer for use in assessing whether a contractor complied with contract terms
and conditions.


Compliance with Property Administration Delegation Requirements and Guidance

We reviewed contract files for 119 contracts with contractor-held property totaling $11 billion
at 4 NASA Centers to determine whether property administration delegation requirements and
guidance were followed. For 10 contracts with more than $12 million in contractor-held
property, Marshall and Johnson contracting officers did not issue property administration
delegations and, in some cases, DCMA did not acknowledge that it accepted, modified, or
rejected the delegation. We interviewed contracting officers, property administrators, and IPOs
at Johnson and Marshall to determine why delegation requirements were not being met. The
interviewed personnel could not explain why property administration was not delegated or
accepted, modified, or rejected by DCMA.

Johnson Request for Property Administrative Services

The Johnson IPO appropriately requested that the Kennedy IPO perform contract property
administration services for three contracts with more than $1.8 billion in contractor-held
property located at Kennedy. The Johnson IPO used NASA Forms 1430 and 1431 when
requesting the services. The requests complied with NASA FAR Supplement Subpart
1845.7209, which states that contractor-held property may be located at an alternate or
different location from the prime contractor. In those cases, the IPO at the prime contractor's
location will determine whether property administration is needed at the alternate location. If the
IPO determines that property administration is needed, then the IPO will request the alternate
location IPO to perform the services.

The Kennedy IPO stated that resource limitations prevented acceptance of the Johnson
requests for property delegation. The resource limitations are evidenced by a recent
reorganization at Kennedy, which reduced the number of property administrators from four to
three thereby reducing the Center's ability to manage contractor-held property.

Performance of Property Administration Functions

The 13 contracts (see Appendix E) for which property administration functions are not being
performed totaled more than $1.9 billion. If property administration services are not performed,
then serious consequences can occur. For example, one of the functions listed in the DOD
manual is the annual analysis of the contractor's property management system. If the analysis is
not performed, then NASA cannot rely on a contractor's property system. It is through the
analysis that the property administrator determines whether the contractor is effectively and
efficiently complying with the terms and conditions of the contract. The system analysis may
identify unsatisfactory conditions, such as inadequate controls for safeguarding Government

                                                 3
property. These unsatisfactory conditions may, in turn, lead to the disapproval of the
contractor's property control system and a subsequent increase in the contractor's liability for
the loss, damage, or destruction of Government property. Because the property administration
functions were not performed, NASA cannot be assured that its Government resources, in the
possession of contractors, are being utilized consistent with the intent of the contract's terms and
conditions.

The lack of acceptance of property administration responsibilities by the Kennedy IPO is in
need of immediate attention because of the value and sensitivity of the property in question.
Kennedy and Johnson need to resolve this issue quickly to ensure that the contractors are
following contract terms and conditions and that contracting officials are advised of property
administration deficiencies. NASA FAR Supplement 1842.202 requires that the delegation be
accepted, modified, or rejected on NASA Form 1431.

Control Improvements Needed.

The Agency should establish a milestone date for delegating contract administration functions,
such as property administration. Contract administration delegations are evidenced on the
"Checklist for Contract Award File Content" document, which is included in contract award
files. The control would help to ensure that contract administration delegations are made and
completed by the contracting officer or his representative in a timely manner.

In addition, the Agency should strengthen contract administration controls to ensure that
contracting officers receive property administration reports. For example, the controls should
ensure that property administration reports are received annually or that the contracting officer is
formally advised as to why it was not received. Such controls would result in assurance that
contract provisions are properly administered and those contracting officials are advised of any
contractor property administration deficiencies.

Conclusion

In some instances, contracting officers are not delegating property administration to DCMA
property administrators as required by the FAR or NASA FAR Supplement. Also, NASA
contracting and property officials have not ensured that DCMA acknowledged receipt and
acceptance of delegations. If property administration functions are not performed, then NASA
has reduced assurance that contractor-held property is managed appropriately.


Recommendations, Management's Response, and Evaluation of
Response



                                                 4
1. The Associate Administrator for Procurement should instruct the Johnson Director
   of the Procurement Directorate and the Marshall Director of the Procurement
   Office to direct their respective contracting officers to immediately issue
   delegation letters to DCMA for those contracts that have not been delegated and
   to obtain acceptance, modification, or rejection for those contracts for which the
   DCMA has not responded to the delegation request.

Management's Response. Concur. The Associate Administrator for Procurement
(Associate Administrator) contacted the respective contracting officers at Johnson and Marshall
to ensure that delegations will be issued and acceptances obtained where necessary.

The Associate Administrator stated that Johnson has taken appropriate action for two contracts
listed in the report. The contracting officer submitted the property administration delegation for
the Canadian Commercial Corporation (NAS9-19569). The IPO has oral confirmation that it
has been received and will be accepted. The contracting officer and IPO are awaiting
acceptance. The contracting officer sent a delegation request to DCMA for Honeywell, Inc.
(NAS9-19605). The contracting officer will follow up to ensure a written acceptance is
received.

The Associate Administrator further stated that the Marshall Procurement Office has taken
appropriate action for those contracts listed in the report. Delegations were not made for six
Small Business Innovative Research Phase II type contracts. The Associate Administrator
stated these contracts are part of a continuous improvement initiative aimed at streamlining
property administration for small, short-duration contracts, which involve no contractor-held
property. Accordingly, the contracting officers retained property administration for these
contracts. However, the Associate Administrator stated that property delegations were made
for the Thiokol contract (NAS8-97238) and that DCMA accepted the delegation on January
27, 2000. The complete text of management's response is in Appendix F.

Evaluation of Response. Management's comments are not fully responsive to the
recommendation. The actions taken by Johnson are appropriate, but not complete. We
consider the delegations complete when they are accepted by DCMA. We do not agree that
the actions taken by Marshall are appropriate. This property is located at off-site contractor
locations. NASA should follow its policy of delegating property administration to DCMA for
off-site contractors. Accordingly, we maintain our position that property delegations should be
completed for these contracts. We, therefore, request that management reconsider its position
and provide comments explaining the reasons for not following this policy.

We concur with management that property administration for the Thiokol contract (NAS8-
97238) has been delegated and accepted. We believed that this contract had not been
delegated because we were provided documentation that showed that the contracting officer
signed the Thiokol property delegation (Form 1430) on March 1, 2000. Subsequent


                                                5
information showed that the delegation was made and accepted in January 2000. Accordingly,
we removed the Thiokol contract from Appendix E and revised the report accordingly.

The recommendation is not resolved and will remain undispositioned and open until the property
delegations for the Johnson contracts are completed and the delegation issue for the Marshall
contracts is resolved.


2. The Associate Administrator for Procurement should strengthen administrative
   controls to ensure that NASA complies with the FAR and NASA FAR Supplement
   regulations that address property administration. Specifically, NASA should
   establish milestone dates for NASA issuance of delegations on new contract
   awards and develop controls that ensure that annual property system analysis
   reports are received in a timely manner.

Management's Response. Concur. Management stated that it will review the current
NASA FAR Supplement. A corrective action official and closure official have been selected.
The projected closure date for this action is March 31, 2001 (see Appendix F).

Evaluation of Response. The Associate Administrator's planned actions are responsive to
the recommendation. The recommendation is resolved but will remain undispositioned and
open until agreed-to corrective actions are completed.


3. The Center Directors at Johnson and Marshall should ensure that contracting
   officers comply with FAR and the NASA FAR Supplement regulation pertaining to
   property administration.

Management's Response. Concur. The Johnson Center Director stated that the Johnson
IPO will address the Johnson Procurement Forum on November 8, 2000, and will cover the
need for contracting officers to delegate remote contracts. Johnson is also considering spot
checks on contracting officer files to verify that delegations have been made and accepted. The
Marshall Center Director stated that the Procurement Office would issue guidance by
December 31, 2000, to all contracting officers on the importance of complying with pertinent
regulations (see Appendix F).

Evaluation of Response. The Center Director's planned actions are responsive to the
recommendation. We encourage Johnson to issue guidance similar to that of Marshall. The
recommendation is resolved but will remain undispositioned and open until agreed-to corrective
actions are completed.

4. The Center Directors at Johnson and Kennedy should resolve the property
   administration issue at Kennedy. Resolution should result in either Kennedy

                                               6
   acceptance of the property administration delegation and assurance that adequate
   resources will be provided to properly oversee the contractors or Johnson retention
   of the property administration function.

Management's Response. Concur. The Johnson IPO is modifying delegation acceptance
letters dated June 30, 2000. The modifications reflect changes in personnel and changes in
responsibilities that resulted from the FY 2000 Industrial Property Conference (see Appendix
F).

Evaluation of Response. The Center Director's planned actions are responsive to the
recommendation. The response, however, does not project when the acceptance letters will be
finalized. Accordingly, we request that management provide a closure date for this
recommendation. The recommendation is resolved but will remain undispositioned and open
until the letters are finalized and adequate resources are provided to oversee the contractors.




                                               7
              Appendix A. Objectives, Scope, and Methodology

Objective

Our overall objective, which will be addressed in future reviews, is to determine whether NASA
and its delegated agencies appropriately manage Government property held by contractors.
This report specifically addresses conditions regarding delegation of property administration.

Scope and Methodology

The audit scope focused primarily on property administration delegations made on or before
February 29, 2000. We made limited reviews of Government property management, which we
will address, in subsequent reviews. We reviewed contract documentation for 119 contracts
with more than $11 billion in contractor-held property to determine whether property
administration requirements and guidance was followed. We did not review any ONR
contracts. We reviewed pertinent audit reports and relevant DOD and NASA guidance. We
interviewed program and contractor personnel to understand property administration delegation.
We did not assess the reliability of computer-processed data because our survey raised
concerns about the validity and reliability of this data. We plan to address this issue in a future
review.

Management Controls Reviewed

We reviewed the following management controls:

•   FAR Part 42, "Contract Administration and Audit Services," Subpart 42.2, "Contract
    Administration Services," and Subpart 42.3, "Contract Administration Office Functions,"
    states that property administration can be delegated.

•   FAR Part 45, "Government Property," Subpart 45.3, "Providing Government Property to
    Contractors," describes policies and procedures for providing Government property to
    contractors.

•   FAR Part 45, "Government Property," Subpart 45.5, "Management of Government
    Property in the Possession of Contractors," prescribes the minimum requirements
    contractors must meet in establishing and maintaining control over Government property.

•   NASA FAR Supplement Part 1845, "Government Property," Subpart 1845.1, "General,"
    states that NASA will use DOD Manual 4161.2-M, "Manual for the Performance of
    Contract Property Administration," when reviewing a contractor's property administration
    system.



                                                 8
                                                                                   Appendix A

•   NASA FAR Supplement Part 1845, "Government Property," Subpart 1845.72, "Contract
    Property Management," Section 1845.7203, "Delegations of Property
    Administration and Plant Clearance," states that when property administration is delegated
    to DOD, property administration will be performed in accordance with DOD regulations
    and procedures.

•   NASA FAR Supplement Part 1845, "Government Property," Subpart 1845.72, "Contract
    Property Management," Section 7204, "Retention of property administration and plant
    clearance," states that NASA may occasionally retain the property administration and plant
    clearance functions.

•   DOD Manual 4161.2-M, "DOD Manual for the Performance of Contract Property
    Administration," sets forth instructions to ensure uniformity and consistency in the
    administration of the contract provision relating to Government property in the possession of
    contractors.

Audit Field Work

We performed the audit field work from October 1999 through July 2000. We conducted the
audit in accordance with generally accepted government auditing standards.




                                               9
         Appendix B. FAR and NASA FAR Supplement Guidance

The FAR and NASA FAR Supplement provide guidance for contract administration, which
includes property administration delegation and acceptance. The guidance includes the
following:

•   FAR Subpart 42.2, "Contract Administration Services." This subpart describes
    contract administration responsibilities and assignment of contract administration.

•   FAR Subpart 42.3, "Contract Administration Office Functions." This section lists the
    various functions, such as property administration, that can be delegated.

•   NASA FAR Supplement Part 1842, "Contract Administration and Audit Services."
    This part describes the assignment of contract administration (delegation and acceptance)
    process.

•   NASA FAR Supplement Subpart 1845.1, "General." This subpart states that property
    administration is normally delegated unless NASA retains property administration. This
    subpart also states that property administrators will use the DOD Manual for the
    Performance of Contract Property Administration.

•   NASA FAR Supplement Subpart 1845.72, "Contract Property Management." This
    subpart provides a general description of contract property management.

•   NASA FAR Supplement Subpart 1845.7209-1, "Government property at alternate
    locations of the prime contractor and subcontractor plants." This subpart provides
    property administration delegation and acceptance procedures to be followed whenever a
    NASA Center delegates property administration to another NASA Center.




                                              10
                Appendix C. Property Management Functions

DOD Manual for the Performance of Contract Property Administration lists 23 duties and
responsibilities that a property administrator must perform. These include:

1. Administering contract provisions, requirements, and obligations relating to contractor-held
   property.

2. Participating in pre-award surveys and postaward reviews.

3. Reviewing contracts to ensure that property is identified and applicable provisions are
   included.

4. Ensuring that contractor property organizations are aware of and understand applicable
   provisions of Government contracts dealing with contractor-held property.

5. Establishing contract property control data files.

6. Providing a contracting officer with recommendations concerning contractor liability for
   property loss, damage, or destruction.

7. Granting relief of responsibility for property loss, damage, or destruction.

8. Performing functions described in FAR 45.5, "Management of Government Property in the
   Possession of Contractors."

9. Developing and applying a property system analysis.

10. Evaluating the contractor's property management system.

11. Advising NASA officials of contractor's noncompliance with contract terms.

12. Notifying contracting officer of excessive acquisition by the contractor.

13. Performing reviews of property acquisition, control, management, use, and disposition.

14. Supporting and assisting contractor's management.

15. Reviewing Government-furnished material for receipt and reconciliation.

16. Providing guidance, counsel, and direction to Government and contract managers.



                                                11
17. Ensuring that the contractor promptly reports excess property.

Appendix C

18. Supporting the assigned Plant Clearance Officer.

19. Obtaining and reviewing contractually required reports.

20. Preparing and reviewing other reports prescribed by higher headquarters.

21. Requesting supporting property administration.

22. Performing supporting property administration.

23. Recognizing the functions of other Government personnel having cognizance of property,
    and obtaining their assistance when required.




                                              12
     Appendix D. Property Management System Analysis Elements

The DOD Manual for the Performance of Contract Property Administration lists 15 system
analysis techniques by property function:

1. Property Management. Ensures that the contractor establishes and maintains an
   approved property control system.

2. Acquisition. Ensures that only contractually approved items are bought or fabricated.

3. Receiving. Ensures that damaged or missing items are resolved and that accepted items
   are properly recorded.

4. Identification. Ensures that property is properly identified, marked, and recorded.

5. Records . Ensures proper accountability of property.

6. Movement. Ensures that property is moved under the proper authority, with appropriate
   documentation and adequate protection.

7. Storage. Ensures that stored property is controlled, protected, and preserved.

8. Physical Inventories. Ensures that the contractor schedules and performs inventories in
   accordance with the contractor's approved property control system.

9. Reports Preparation. Ensures that the contractor's property reports are timely, accurate,
   and complete.

10. Materials Consumption. Ensures that materials are consumed in accordance with
    contract requirements and are not diverted to other work.

11. Utilization. Ensures that the contractor used property in accordance with the contract
    terms and conditions.

12. Maintenance. Ensures that the contractor established and follows an appropriate method
    of maintaining property.




                                              13
13. Subcontract Control. Ensures that the contractor established adequate subcontract
    control.

14. Disposition. Ensures that the contractor has a system for disclosing excess property and
    effecting its timely disposition.

15. Contract Close-Out. Ensures that the contractor has a method to ensure completion of
    all contract closeout actions related to property.




                                             14
   Appendix E. Contracts Without Completed Contract Delegations

Contract                             Contractor                       Property Value
Number

Johnson

NAS9-19569       Canadian Commercial Corporation                      $           4,720,214
NAS9-19605       Honeywell, Inc.                                                     282,705
NAS9-97199       Spacehab*                                                       15,551,122
NAS9-98100       Lockheed-Martin*                                               581,460,942
NAS15-10000      The Boeing Company*                                          1,291,989,965

                                                            Subtotal $ 1,894,004,948


Marshall

NAS8-40369       Ion Electronics                                          $     12,628,181
NAS8-97017       Physical Sciences                                                   23,642
NAS8-97036       Sohar                                                               21,067
NAS8-97309       University of Arizona                                                7,757
NAS8-98028       Makel Engineering                                                   10,000
NAS8-98077       Digital Optical                                                     14,271
NAS8-98086       X-Ray Optical                                                       55,331
NAS8-99076       Adroit Systems                                                       1,914

                                                            Subtotal $          12,762,163

                                                        Grand Total $ 1,906,767,111


* The Kennedy IPO did not accept property administration responsibility for these
contracts.




                                             15
Appendix F. Management's Response




               16
Appendix F




             17
     Appendix F




18
Appendix F




             19
     Appendix F




20
Appendix F




             21
     Appendix F




22
                        Appendix G. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Director, John F. Kennedy Space Center
Director, George C. Marshall Space Center
Chief Counsel, John F. Kennedy Space Center
Industrial Property Officer, John F. Kennedy Space Center
Industrial Property Officer, George C. Marshall Space Flight Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisition Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                              23
Appendix G

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             24
                   NASA Assistant Inspector General for Auditing
                                  Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Property Administration Delegations for Contractor-Held Property

Report Number:                                             Report Date:

Circle the appropriate rating for the following statements.

                                                          Strongl                              Strongl
                                                             y      Agree   Neutra   Disagre   y         N/A
                                                          Agree               l         e      Disagre
                                                                                                  e

1.   The report was clear, readable, and logically           5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.                5       4        3         2         1      N/A
3.   We effectively communicated the audit objectives,       5       4        3         2         1      N/A
     scope, and methodology.
4.   The report contained sufficient information to          5       4        3         2         1      N/A
     support the finding(s) in a balanced and objective
     manner.


Overall, how would you rate the report?

         Excellent                   Fair
         Very Good                   Poor
         Good


If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes:______                                      No:______

Name:
_____________________________

Telephone: _________________________

Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Daniel Samoviski, Program Director, Earth and Space Science Audits

Robert Williams, Program Manager

Larry J. Timmons, Auditor-in-Charge

Ellis Lee, Auditor

Nancy Cipolla, Report Process Manager

Iris Purcarey, Program Assistant
